March 5, 2003

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT: Audit Report – Sexual Harassment Prevention Measures in the Dakotas
         and Portland Districts - Western Area (Report Number LH-AR-03-007)

This report presents the results of our audit of sexual harassment prevention measures
in the Dakotas and Portland Districts - Western Area (Project Number 02YG010LH009).
Our overall objective was to determine if the districts had adequate policies and
procedures in place to prevent sexual harassment in the workplace, and to effectively
address sexual harassment complaints to mitigate liability. This report is based on a
self-initiated review, and is the seventh in a series of ten reports we will be issuing
regarding sexual harassment prevention measures Postal Service-wide.

We found that the Dakotas and Portland Districts’ sexual harassment policies and
procedures were adequate and that most employees found responsible for sexual
harassment or inappropriate actions/comments were appropriately disciplined or
corrective action was taken. We also found that although no Postal Service national
policy existed regarding the retention time for informal complaint files, the Dakotas
District was retaining files indefinitely and Portland retained them for a period of
10 years. In addition, the storage of files in Portland was adequate, and all sexual
harassment complaints in the Dakotas District were effectively addressed. We also
found, however, that some areas needed improvement. Specifically, in the Portland
District, one manager responsible for sexual harassment was not considered for
exclusion from the Pay for Performance Program and some sexual harassment
complaints were not effectively addressed. In addition, the storage of complaint files in
the Dakotas District was not centrally located. The Dakotas District advised us they
have taken action to correct this deficiency.

The report included three recommendations to help the Dakotas and Portland Districts
improve their sexual harassment prevention program. Management agreed with
recommendations 1 and 3, and the first part of recommendation 2. The actions taken or
planned should correct some of the issues identified in this report. Management did not
agree, however, with the second part of recommendation 2, to fully document detailed
evidence of the actions taken to address complaints. The Office of Inspector General
(OIG) considers that part of recommendation 2 unresolved and will address it in a
separate capping report to the senior vice president, Human Resources.
Management’s comments and our evaluation of these comments are included in this
report.

The OIG considers recommendation 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact Chris Nicoloff, director, Labor Management, at
(214) 775-9114, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Suzanne F. Medvidovich
    Murry E. Weatherall
    Dallas W. Keck
    Richard S. Shaver
    Susan M. Duchek
Sexual Harassment Prevention Measures in the Dakotas                     LH-AR-03-007
 and Portland Districts – Western Area


                                  TABLE OF CONTENTS
 Executive Summary                                                           i

 Part I

 Introduction                                                               1

    Background                                                              1
    Objective, Scope, and Methodology                                       1
    Prior Audit Coverage                                                    1

 Part II

 Audit Results                                                              2

   Policies and Procedures Adequate                                         2

   Most Employees Appropriately Disciplined or Corrective Action Taken      3

   Manager/Supervisor Not Considered for Exclusion from Pay for             5
    Performance
   Recommendation                                                           5
   Management’s Comments                                                    5
   Evaluation of Management’s Comments                                      6

   Some Complaints Not Effectively Addressed                                7
   Recommendation                                                           8
   Management’s Comments                                                    8
   Evaluation of Management’s Comments                                      9

   File Retention and Storage Needed Improvement                           10
   Recommendation                                                          11
   Management’s Comments                                                   11
   Evaluation of Management’s Comments                                     11

 Appendix A. Objective, Scope, and Methodology                             12

 Appendix B. Management’s Comments                                         14




                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                               LH-AR-03-007
 and Portland Districts – Western Area


                                 EXECUTIVE SUMMARY
 Introduction                 This report presents the results of our audit of sexual
                              harassment prevention measures in the Dakotas and
                              Portland Districts, located in the Western Area. This review
                              was self-initiated to determine if the districts had adequate
                              policies and procedures in place to prevent sexual
                              harassment in the workplace, and to effectively address
                              sexual harassment complaints to mitigate liability.

 Results in Brief             The audit revealed that the Dakotas and Portland Districts’
                              sexual harassment policies and procedures were adequate
                              and that most employees found responsible for sexual
                              harassment or inappropriate actions/comments were
                              appropriately disciplined or corrective action was taken. We
                              also found that although no Postal Service national policy
                              existed regarding the retention time for informal complaint
                              files, the Dakotas District was retaining files indefinitely and
                              Portland was retaining files at least 10 years. In addition,
                              the storage of files in Portland was adequate, and all
                              complaints in the Dakotas District were effectively
                              addressed. We also found, however, that some areas
                              needed improvement. Specifically, in the Portland District,
                              one manager/supervisor responsible for sexual harassment
                              was not considered for exclusion from the Pay for
                              Performance Program, and some sexual harassment
                              complaints were not effectively addressed. In addition, the
                              storage of complaint files in the Dakotas District was not
                              centrally located. The Dakotas District advised us some
                              action has been taken to correct this deficiency.

 Summary of                   The report included three recommendations to help the
 Recommendations              Dakotas and Portland Districts improve their sexual
                              harassment prevention program. We recommended
                              management instruct the Portland district manager to
                              establish controls to ensure that managers/supervisors
                              disciplined for sexual harassment or inappropriate
                              actions/comments of a sexual nature are considered for
                              exclusion from all pay for performance or bonus programs.
                              We also recommended the Portland District manager
                              establish controls to ensure managers and supervisors
                              effectively address all sexual harassment complaints and
                              inappropriate actions/comments of a sexual nature and fully
                              document detailed evidence of the actions taken to address
                              complaints. Finally, we recommended the Dakotas District


                                                   i
                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                              LH-AR-03-007
 and Portland Districts – Western Area


                              manager establish controls to ensure all informal complaint
                              files are stored in a central location.

 Summary of                   Management agreed with recommendation 1 that managers
 Management’s                 and supervisors disciplined for sexual harassment or
 Comments                     inappropriate actions/comments of a sexual nature be
                              considered for exclusion from all pay for performance or
                              bonus programs. Management issued a letter to the
                              districts in January 2003, reaffirming this position.
                              Management also agreed with recommendation 3 that
                              informal complaint files be stored in a central location in the
                              Dakotas District, and stated that the Dakotas District’s
                              complaint files are now centrally stored and the remaining
                              11 districts in the Western Area will follow this procedure.

                              Management also agreed with the first part of
                              recommendation 2 that all sexual harassment complaints be
                              effectively addressed. Management did not agree,
                              however, with the second part of the recommendation to
                              fully document detailed evidence of the actions taken to
                              address complaints. They stated Postal Service policy
                              allows some matters to be resolved simply and directly
                              between the parties without a formal written record and to
                              require documentation on every minor incident would
                              potentially undermine the ability of supervisors to quickly
                              and effectively resolve minor workplace issues.
                              Management also stated that although all matters will be
                              fully investigated, not all complaints would result in a full
                              written record with detailed evidence. Management’s
                              comments, in their entirety, are included in Appendix B of
                              this report.

 Overall Evaluation of        Management’s actions taken or planned are responsive
 Management’s                 to recommendations 1, 3, and the first part of
 Comments                     recommendation 2. Management’s comments are not
                              responsive to the second part of recommendation 2, that all
                              actions taken be fully documented. We do not agree that
                              fully documenting actions taken to address complaints
                              would potentially undermine the ability of supervisors to
                              quickly resolve minor workplace issues. Documenting the
                              actions management took, after they address the complaint,
                              has no impact on how quickly a matter can be resolved. It
                              does, however, play an important role in determining
                              creditably and mitigating liability. Postal Service policy is
                              clear that serious complaints must be documented, and


                                                   ii
                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                                                    LH-AR-03-007
 and Portland Districts – Western Area


                                    further provides that “When in doubt, document.” We
                                    believe the policy does not limit management from
                                    documenting all actions, it simply establishes a floor, not a
                                    ceiling for addressing complaints. The OIG considers this
                                    part of recommendation 2 unresolved and will address it in a
                                    separate capping report.1




1
  We will issue a capping report on the audit results for the nine areas we visited, including the Western Area, where
recommendations regarding national policy will be made to the senior vice president, Human Resources.



                                                         iii
                                               Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                                                LH-AR-03-007
 and Portland Districts – Western Area


                                            INTRODUCTION
    Background                     Sexual harassment is defined by law as unwelcome sexual
                                   advances, requests for sexual favors, and other verbal or
                                   physical conduct of a sexual nature that becomes a term or
                                   condition of employment. According to a Postal Service
                                   Law Department report, in fiscal years (FY) 2000 and 2001,
                                   the Postal Service paid approximately $725,3002 for sexual
                                   harassment judgments and settlements in the Western
                                   Area.3

    Objective, Scope, and          Our overall objective was to determine if the districts had
    Methodology                    adequate policies and procedures in place to prevent sexual
                                   harassment in the workplace, and to effectively address
                                   sexual harassment complaints to mitigate liability. Our
                                   objective, scope, and methodology are discussed in
                                   Appendix A.

    Prior Audit Coverage           We did not identify any prior audits or reviews related to the
                                   objective of this audit in these two districts.




2
  This amount represents 12 complaints. None of these complaints were within the scope of our review.
3
  In September 2001, the Postal Service reorganized its area and district offices and the Mid-West Area was changed
to the Western Area.



                                                        1
                                             Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                                   LH-AR-03-007
 and Portland Districts – Western Area


                                          AUDIT RESULTS
 Policies and        We found that the Dakotas and Portland Districts had
 Procedures Adequate adequate policies and procedures that should enable district
                     management to identify and prevent sexual harassment or
                     inappropriate actions/comments, and provide management
                     with guidance to respond effectively to complaints, thus
                     mitigating liability and costs.

                              We also found that the districts:

                                  •   Established as district policies, Postal Service
                                      Publication 552, Manager’s Guide to Understanding
                                      Sexual Harassment and Publication 553, Employee’s
                                      Guide to Understanding Sexual Harassment.

                              In addition, we found that the two districts took several
                              additional initiatives including the following:

                                  •   The Dakotas District:

                                      − Issued three memorandums in 2000, 2001, and
                                         2002, regarding sexual harassment policy.

                                  •   The Portland District:

                                      −     Issued a district policy that required all Executive
                                           and Administrative Schedule employees to
                                           immediately report allegations of sexual
                                           harassment to the district manager or Human
                                           Resources manager.




                                                     2
                                          Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                                                       LH-AR-03-007
 and Portland Districts – Western Area




    Most Employees                    We found that most employees responsible for sexual
    Appropriately Disci-              harassment or inappropriate actions/comments were
    plined or Corrective              appropriately disciplined, or corrective action was taken.
    Action Taken
                                      Equal Employment Opportunity Commission 1990 and
                                      1999 guidelines recommended agencies take immediate
                                      and appropriate corrective action, including discipline, when
                                      sexual harassment occurred. Postal Service policy stated
                                      employees engaged in sexual harassment would be subject
                                      to disciplinary action, up to and including removal. The
                                      policy also stated that disciplinary action might result even if
                                      the conduct was not sexual harassment as defined by the
                                      law, but was inappropriate and of a sexual nature.

                                      Our review of formal and informal4 complaints in the
                                      Dakotas and Portland Districts showed that:

                                          •    Of the four formal and informal complaints filed in the
                                               Dakotas District, sexual harassment or inappropriate
                                               actions/comments was not substantiated in any of
                                               the four complaints, and no discipline was rendered.
                                               However, in one of the complaints, corrective action
                                               was taken.

                                          •    Of the 36 formal and informal complaints filed in the
                                               Portland District, sexual harassment or inappropriate
                                               actions/comments were not substantiated in
                                               20, substantiated in 15, and inconclusive in 1.

                                                − In 14 of the 15 substantiated complaints,
                                                  14 employees were involved. Thirteen were
                                                  appropriately disciplined and one was not. In the
                                                  remaining complaint, all employees in the facility
                                                  were involved and corrective action was taken in
                                                  the form of sexual harassment prevention
                                                  training.

                                                −   For the one employee where discipline was not
                                                    appropriate, we found it was not consistent and
                                                    proportional when compared to other employees
                                                    disciplined for similar behavior.


4
    The term “informal” complaint refers to those not filed in the Equal Employment Opportunity process.



                                                            3
                                                 Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                           LH-AR-03-007
 and Portland Districts – Western Area


                                       − In the 20 complaints where sexual harassment or
                                         inappropriate actions/comments were not
                                         substantiated, corrective action was taken in 7.
                                         The corrective action ranged from discussions
                                         with the employees to sexual harassment
                                         training.




                                                   4
                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                                            LH-AR-03-007
 and Portland Districts – Western Area




    Manager/Supervisor           We found that one supervisor in the Portland District was
    Not Considered for           found responsible for sexual harassment and was not
    Exclusion From Pay           considered for exclusion from the Pay for Performance
    for Performance              Program.5 The supervisor received $1,768 in FY 2001,
                                 because, according to district management, award payouts
                                 were given before the merit ratings. Therefore, no one in
                                 the district was excluded from the Pay for Performance
                                 Program in FY 2001.

                                 Equal Employment Opportunity Commission guidelines
                                 included a reduction in wages as an effective corrective
                                 measure to stop harassment and ensure it does not reoccur.
                                 Postal Service policy stated an employee whose conduct
                                 was clearly unacceptable may be excluded from the Pay for
                                 Performance Program. The Postal Service described
                                 unacceptable behavior as “notoriously disgraceful or
                                 immoral conduct, or other conduct prejudicial to the Postal
                                 Service.”

                                 We believe sexual harassment meets the Postal Service’s
                                 definition of unacceptable behavior or immoral conduct and
                                 all managers/supervisors found responsible for sexual
                                 harassment or inappropriate actions/comments of a sexual
                                 nature should be considered for exclusion from pay for
                                 performance and bonus programs. Such exclusion could be
                                 an effective corrective measure to stop harassment and
                                 ensure it does not reoccur.

    Recommendation               We recommend the vice president, Western Area
                                 Operations, instruct the Portland District manager to:

                                     1. Establish controls to ensure that managers and
                                        supervisors disciplined for sexual harassment or
                                        inappropriate actions/comments of a sexual nature
                                        are considered for exclusion from all pay for
                                        performance or bonus programs.

    Management’s                 Management agreed with the finding and recommendation
    Comments                     stating, effective with the close of FY 2002, the Pay for


5
 The Pay for Performance Program, formerly referred to as the Economic Value Added Program, was an incentive
award program for nonbargaining employees. The amount of money received by each employee was based on a
group achievement of performance targets and financial measurements.



                                                       5
                                            Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                              LH-AR-03-007
 and Portland Districts – Western Area



                              Performance, Economic Value Added Incentive Program for
                              all non-bargaining and executive employees was
                              discontinued nationally. Management stated, in keeping
                              with the spirit and intent of this recommendation, a letter of
                              instruction was issued to Western Area districts, dated
                              January 27, 2003, reaffirming that whenever disciplinary
                              action is taken and upheld against a non-bargaining
                              employee or executive for sexual harassment or
                              inappropriate actions/comments of a sexual nature, such
                              discipline should be further considered in evaluating the
                              individual’s eligibility for pay for performance or bonus
                              programs.

 Evaluation of                Management’s action taken or planned should correct the
 Management’s                 issues identified in the report.
 Comments




                                                   6
                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                                                  LH-AR-03-007
 and Portland Districts – Western Area




 Some Complaints                   Our audit disclosed that all 4 of the sexual harassment
 Not Effectively                   complaints in the Dakotas District were effectively
 Addressed                         addressed, and 10 of the 36 complaints in the Portland
                                   District were not. Equal Employment Opportunity
                                   Commission guidelines defined an “effective” investigation
                                   as a prompt, thorough, and impartial review with
                                   documented evidence. Postal Service policy required
                                   managers to conduct sexual harassment inquiries promptly
                                   and investigate all complaints, and document “serious”
                                   complaints with detailed evidence.6

                                   We found that:

                                       •    Postal Service national policy did not require that “all”
                                            complaints be documented—only those that
                                            managers believed were “serious.”

                                       •    Of the ten complaints not effectively addressed in the
                                            Portland District, one was not documented, one was
                                            not thorough, and eight were not prompt.

                                             − District management provided numerous reasons
                                               why the ten complaints were not effectively
                                               addressed. For example, for the eight that were
                                               not prompt, the Human Resources manager
                                               stated scheduling conflicts, fact-finder team
                                               unavailability, and holiday seasons, prevented
                                               them from being promptly addressed.

                                   Complaints not effectively addressed could result in liability
                                   because the Postal Service cannot demonstrate it exercised
                                   reasonable care to prevent and promptly correct harassing
                                   behavior. We believe the lack of a Postal Service policy
                                   requiring documentation of all complaints may have been a
                                   factor. We will address this issue in a separate report.




6
  Publication 552 was revised effective September 2001, and replaced the term “serious” with the statement “some
complaints can be resolved simply and directly between the parties without the need for a formal written record.” The
revised policy also provided that managers/supervisors needed to decide early in the process whether formal
documentation was warranted, and that a good rule of thumb was when in doubt, document.



                                                         7
                                              Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                              LH-AR-03-007
 and Portland Districts – Western Area




 Recommendation               We recommend the vice president, Western Area
                              Operations, instruct the Portland District manager to:

                                  2. Establish controls to ensure managers and
                                     supervisors effectively address all sexual harassment
                                     complaints and inappropriate actions/comments of a
                                     sexual nature and fully document detailed evidence of
                                     the actions taken to address complaints.

 Management’s                 Management agreed with the finding and the first part of the
 Comments                     recommendation that all sexual harassment complaints be
                              effectively addressed. However, management did not agree
                              with the second part of the recommendation to fully
                              document detailed evidence of the actions taken to address
                              complaints. Management stated that Postal Service policy
                              allows some matters to be resolved simply and directly
                              between the parties without a formal written record. They
                              stated this is to allow managers’ maximum flexibility and
                              speed to deal with those minor, one-time events.
                              Management stated to require documentation on every
                              minor incident would potentially undermine the ability of
                              supervisors to quickly and effectively resolve minor
                              workplace issues. Additionally, they stated managers do not
                              need to create a record on the unjustly accused employee
                              when frivolous and baseless charges are levied.
                              Management stated that although all matters will be fully
                              investigated, not all complaints would result in a full written
                              record with detailed evidence.

                              Management also stated that immediately following the
                              debriefing of the draft report by the OIG, that disclosed the
                              finding that the Portland District had not effectively
                              addressed ten complaints, the Portland District manager
                              initiated changes to improve the district’s protocol. For
                              example, management stated that records would now
                              substantiate management’s actions to address complaints
                              and the rationale supporting those initial management
                              actions. Management stated a letter of instruction was
                              issued that reaffirmed that controls should be established to
                              ensure that the Western Area promptly investigates and
                              documents that it exercised reasonable care to prevent and
                              correct harassing behavior.




                                                   8
                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                              LH-AR-03-007
 and Portland Districts – Western Area




 Evaluation of                Management’s actions taken or planned are responsive to
 Management’s                 the first part of the recommendation and should correct the
 Comments                     issues identified in this report. Management’s planned
                              action is not responsive to the second part of our
                              recommendation. We do not agree with management that
                              documenting actions would potentially lead to a failure in the
                              ability of supervisors to quickly resolve minor workplace
                              issues. Documenting action management took after they
                              address the complaint, has no impact on how quickly a
                              matter can be resolved. It does, however, play an important
                              role in determining creditably and mitigating liability.
                              Specifically, it provides a record of the action taken to
                              address and resolve sexual harassment complaints. Postal
                              Service policy is clear that serious complaints must be
                              documented, and further provides that “When in doubt,
                              document.” We believe the policy does not limit
                              management from documenting all actions, it simply
                              establishes a floor, not a ceiling for addressing complaints.
                              We view the disagreement on this recommendation as
                              unresolved and it will be addressed in our capping report.




                                                   9
                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                               LH-AR-03-007
 and Portland Districts – Western Area




 File Retention and           Our audit found there was no Postal Service policy
 Storage Needed               regarding the retention time for informal complaint files. In
 Improvement                  addition, the retention of informal complaint files was
                              adequate in both districts. Also, storage of files was
                              adequate in the Portland District, but not in the Dakotas
                              District.

                              Equal Employment Opportunity Commission guidance
                              stated formal sexual harassment complaint files should be
                              retained for at least 4 years after resolution of the complaint.
                              Postal Service policy stated once an inquiry/investigation
                              was conducted, files should be forwarded for storage, to the
                              district Human Resources manager. According to a
                              headquarters senior Postal Service manager, the intent of
                              this policy was to centrally locate the files with the Human
                              Resources manager.

                               We found that:

                                   •   The Portland District centrally stored informal sexual
                                       harassment complaint files in the Human Resources
                                       office and retained them for a period of 10 years.

                                   •   The Dakotas District centrally stored some informal
                                       sexual harassment complaint files in the district
                                       Human Resources office, and retained them
                                       indefinitely. However, the files for investigations
                                       conducted at the facility level, were stored at the
                                       facility. The Human Resources manager stated
                                       there was no policy regarding where to store
                                       informal investigation files.

                               During the audit, the Dakotas District management advised
                               us they took actions to correct the problems we identified by
                               requiring the storage of all informal sexual harassment
                               complaint files in the district Human Resources office.

                              Retaining and storing informal complaint files in a central
                              location would ensure file availability if needed to mitigate
                              liability. We will address the need for a national retention
                              policy in a separate report.




                                                  10
                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                              LH-AR-03-007
 and Portland Districts – Western Area




 Recommendation               We recommend the vice president, Western Area
                              Operations, instruct the Dakotas District manager to:

                                  3. Establish controls to ensure all informal complaint
                                     files are stored in a central location.

 Management’s                  Management agreed with the finding and recommendation
 Comments                      and stated that in addition to the corrective action noted in
                               the report by the Dakotas district manager, on May 24,
                               2002, the Dakotas District completed its abatement work on
                               this recommendation and informal sexual harassment
                               complaint files are now centrally stored in the district’s
                               Human Resources office. Additionally, the 11 remaining
                               Western Area districts have followed suit and validated all
                               informal sexual harassment complaint files are now
                               centrally stored in the respective district’s Human
                               Resources offices.

 Evaluation of                Management’s actions taken or planned should correct the
 Management’s                 issues identified in the report.
 Comments




                                                  11
                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                                                 LH-AR-03-007
 and Portland Districts – Western Area


          APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine if the Dakotas and Portland Districts, in the Western
Area, implemented adequate policies and procedures to prevent sexual harassment7 in
the workplace and to effectively address sexual harassment complaints to mitigate
liability. Our district selections were based on interviews with the senior vice president,
Human Resources; vice president, Diversity Development; and the vice president,
Western Area. We also considered the number of closed formal sexual harassment
complaints in each of the 15 Western Area districts.

To accomplish our objectives, we reviewed applicable laws, policies, procedures, and
other documents including; Equal Employment Opportunity Commission guidelines,
Postal Service national policies, the Western Area, and the Dakotas and Portland
Districts’ policies for preventing sexual harassment in the workplace. We also reviewed
Postal Service national policy regarding the Pay for Performance Program. In addition,
we reviewed previously issued Office of Inspector General reports related to sexual
harassment issues. Further, we interviewed Postal Service Headquarters, Western
Area, Dakotas, and Portland District officials.

To determine if adequate policies and procedures were in place to prevent sexual
harassment from occurring in the workplace, we identified Equal Employment
Opportunity Commission key recommendations to agencies regarding policies and
procedures that should be in place to prevent sexual harassment and reduce the risk of
agency liability. We then reviewed the Postal Service national, Western Area, and
Dakotas and Portland Districts’ policies and procedures to determine if the
recommendations were included.

To determine whether district managers effectively addressed informal sexual
harassment complaints to mitigate liability, we analyzed the documentation contained in
formal and informal complaint files that were filed and closed8 in FYs 2000 and 2001,9
for the two districts we selected. We recorded information related to promptness,
thoroughness, impartiality and the level of documentation. These fiscal years were
chosen because they were the most recent and complete fiscal years at the time of our
fieldwork. The number of formal and informal closed complaints was obtained from the
Postal Service Equal Employment Opportunity case file database and district
management, respectively. We then excluded those complaints where the employees
filed their complaints directly with the Equal Employment Opportunity office and
requested confidentiality. These were excluded because honoring the request for

7
  For the purpose of this report, we used the legal definition of sexual harassment defined in part, in 29 C.F.R.
§ 1604.11(a), as unwelcome sexual conduct that is a term or a condition of employment. In addition, we included the
Postal Service policy regarding inappropriate actions/comments of a sexual nature when reviewing sexual
harassment complaint files.
8
  Sexual harassment complaints may be considered closed for a number of reasons including: (1) the
inquiry/investigation was completed, (2) a settlement had been reached, (3) the complaint was withdrawn, or
(4) discipline or corrective action was taken.
9
  We used the Postal Service fiscal years that started September 11, 1999, and ended September 7, 2001.



                                                       12
                                             Restricted Information
Sexual Harassment Prevention Measures in the Dakotas                                               LH-AR-03-007
 and Portland Districts – Western Area


confidentiality precluded the Equal Employment Opportunity office from notifying district
management that a complaint had been made. This in turn precluded management
from conducting an investigation. We determined there were 40 complaint files as
follows:

                                                        Complaints              Total Complaints
                         District
                                                     Formal   Informal             Per District
          Dakotas                                      2          2                    4
          Portland                                     9         27                    36
           Total                                       11        29                    40

We also determined if the retention and storage of informal files were adequate using
Postal Service national, area, and district policies as well as Equal Employment
Opportunity Commission guidelines.

In addition, we determined whether employees found responsible for sexual harassment
received appropriate discipline using Equal Employment Opportunity Commission
guidelines, Postal Service policies and procedures, and some elements of the Douglas
Factors.10 We included in this determination whether or not managers or supervisors
found responsible for sexual harassment or inappropriate actions/comments were
considered for exclusion from the Pay for Performance Program.

This audit was conducted from February 2002 through March 2003 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate management officials and included their
comments, where appropriate.




10
  The Douglas Factors were developed as a result of case law (Douglas v. the Veterans’ Administration) where the
Merit Systems Protection Board ruled that management must document certain factors to be considered in making a
determination of appropriate disciplinary action.



                                                       13
                                             Restricted Information
Sexual Harassment Prevention Measures in the Dakotas             LH-AR-03-007
 and Portland Districts – Western Area


                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                  14
                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas             LH-AR-03-007
 and Portland Districts – Western Area




                                                  15
                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas             LH-AR-03-007
 and Portland Districts – Western Area




                                                  16
                                        Restricted Information
Sexual Harassment Prevention Measures in the Dakotas             LH-AR-03-007
 and Portland Districts – Western Area




                                                  17
                                        Restricted Information
